OIG Investigative Reports, Chicago, IL., August 22, 2012 - State's Attorney Announces "Operation Cookie Jar" Corruption Charges
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
Cook County State's Attorney's Office:
Press Releases
Anita Alvarez
Cook County State's Attorney
Communications Department
Chicago, IL 60602
(312) 603-3423
saomedia@cookcountyil.gov
FOR IMMEDIATE RELEASE:
August 22, 2012
State's Attorney Announces "Operation Cookie Jar" Corruption Charges
As parents and children begin the start of the new school year, the Cook County State's Attorney's Office today announced charges against multiple former public education employees who are alleged to have used their positions of trust and authority in schemes to steal hundreds of thousands of dollars in public funding from the coffers of school districts and taxpayers, State's Attorney Anita Alvarez announced today.
In cooperation with educational Inspectors General at the local, state and federal level, the State's Attorney's Office today announced charges against a total of six defendants.  They include a former superintendent of a south suburban school district and the district's board of education secretary; a former City College's professor and employee, and two former Chicago Public School employees.
The defendants face varying charges of theft, bribery and official misconduct including several Class X charges of Theft from a School or Theft of Government Property.  The charges are part of "Operation Cookie Jar," the State's Attorney's ongoing investigative operation targeting public or government employees accused of corruption at the local level.
Alvarez was joined in making the announcement by Inspectors General from the U.S. Department of Education's North Central Regional Office; the Chicago Public Schools and the City Colleges of Chicago.
"The theft of public money by individuals who are in a position of public trust is always egregious, but the theft of monies from schools is exceptionally outrageous and extremely offensive when the ultimate victims are school children," Alvarez said.  "We are pleased to report that corruption will no longer be a part of the curriculum at the schools and school districts victimized by these defendants."
Among those charged are Alex Boyd, 65, of Richton Park, and Mable Chapman, 58, of Harvey.  Boyd served as the Superintendent of Illinois School District 147 for 11 years until his resignation in June of 2011.  Chapman worked with Boyd in her role as the Secretary for the District 147 Board of Education, an elementary school district that serves many underprivileged students and their families from the south suburban communities of Harvey and Dixmoor.
According to prosecutors, Boyd is charged with engaging in a variety of schemes to misappropriate hundreds of thousands of dollars in funds from SD 147 with Chapman's assistance.  Boyd is accused of converting his district-provided term life insurance policy into a whole life insurance policy that allowed him to make more than $50,000 in early withdrawals.  He is also alleged to have improperly sold back in excess of 560 sick and vacation days allowing him to pocket more than $350,000.
He is further accused of improperly using his school-district issued credit card to make more than $57,000 in unauthorized purchases that included grocery store and restaurant purchases, renting formal wear, alcohol and women's apparel.
According to prosecutors, Chapman assisted Boyd in many cases by signing off on his transactions as the Board Secretary.  In exchange, it is alleged that Boyd also used the district credit card to purchase airline tickets for Chapman to vacation in Florida and California as well as visit relatives in Texas and Mississippi.  The investigations also found that at least five friends and relatives of Chapman's had been hired by the school district in recent years, including the husband of her supervisor at ComEd where she was employed. Chapman is also alleged to have directed maintenance staff at the school district to use the district's snow removal equipment to plow her home's driveway after storms.
Boyd is charged with Theft from a school in excess of $100,000 (Class X); Theft from a school in excess of $10,000 (Class 1); Theft from a school in excess of $500 (Class 3), and Official Misconduct (Class 3).  Chapman is charged with Theft from a school in excess of $100,000 (Class X); Theft from a school in excess of $10,000 (Class 1); Theft from a school in excess of $500 (Class 3), and Official Misconduct (Class 3).
Other charges include:
~~ Louis James, 58, of Chicago, a manager of sports administration for Chicago Public Schools.  James is charged with Theft of government property $300-$10,000 (Class 2), and Official misconduct (Class 3).
According to prosecutors, James's job responsibilities included authorizing purchases and CPS officials discovered a number of suspicious invoices associated with the defendant.  A closer look found that the defendant had used the forgeries to obtain checks payable to various retailers and then purchased different items than were specified.  Some of the items were later returned by the defendant who then pocketed the cash and used store credit to purchase items that included champagne, flowers, chocolates, condoms, and a king size mattress.
~~ Carol Howley, 64, of Fort Collins, CO, a former Professor at City Colleges of Chicago.  Howley is charged with Theft of government property (Class X).  According to prosecutors, Howley told school officials that she was in the process of earning her doctoral degree when she was hired as a full time faculty member in 1995.
Over the next 15 years she repeatedly lied to officials that she was continuing to work towards her doctorate and eventually presented them with a forged transcript from Rush University purportedly showing she graduated. Her scheme unraveled when a prospective employer in Colorado attempted to verify her credentials.  The defendant's deception about her education qualified her for a higher salary and allowed her collect an extra $307,000 in pay during her employment.
~~ Natatia Trotter-Gordon, 43, of Chicago, a former director of Business and Industry at Kennedy-King College.  Trotter-Gordon is charged with eight counts of Forgery (Class 3).  According to prosecutors, Trotter- Gordon's responsibilities included coordinating a conversational Spanish program for employees of Northwestern Memorial Hospital taught through Kennedy King College.
The defendant directed hospital officials not to mail checks to her at the school but instead hold them for her to personally pick up.
Trotter-Gordon further directed that the checks be made payable to "Kennedy-King College, c/o Natatia M. Trotter-Gordon". The investigation revealed that the defendant cashed two checks at a bank and deposited two checks into her in her own personal bank account totaling more than $51,000.
~~ Sonia Lopez, 49, of Chicago, a former teaching assistant at Thurgood Marshall Middle School.  Lopez is charged with Theft from a school (Class 1).  According to prosecutors, Lopez worked in various positions for the school since 1994. Part of her responsibilities included collecting student fees, making bank deposits, and paying bills. The investigation found that Lopez had issued 14 fraudulent checks to herself totaling over $21,000. The defendant hid her thefts by changing school records to reflect they were for legitimate purchases. The defendant was also found to have pocketed nearly $3,000 in cash collected from students for fees and other payments. The investigation found that the defendant had used the stolen money to pay her credit card bills.
Since the start of 'Cookie Jar' investigations in 2010 and including today's cases, a total of 27 defendants have been charged.  Of the 27, 14 of the defendants have pled guilty or been convicted on felony charges receiving sentences ranging from probation and restitution to up to six years in prison.  'Cookie Jar' prosecutions have also led to the collection and reimbursement of more than $3 million in restitution payments for local governments and other agencies that were victimized.
"The type of local corruption targeted in 'Cookie Jar' investigations puts a ridiculous burden on local taxpayers, who are already struggling to make ends meet in these difficult economic times," Alvarez said.  "We are very pleased with the sentences we have received in these cases and the fact that we are regularly securing restitution for those agencies that have been robbed of funds.  It should send a strong message that there will be very serious consequences for this type of crime."
The public is reminded that the charging documents contain allegations that are not evidence of guilt.  The defendant is entitled to a fair trial at which the state has the burden of proving guilt beyond a reasonable doubt.
# # #
Top
Printable view
Last Modified: 08/27/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov